Washington, D.C. 20530

November 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Eric Malmstrom v. United States of America,
S.Ct. No. 20-5917

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 1, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on November 25, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 18, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5917
MALMSTROM, ERIC
USA

JANE ELIZABETH LEE
44 EXCHANGE STREET
STE. 201
PORTLAND, ME 04102
2078710310

